Supreme Court, U.S.
FILED

P 1JL

No. :

^9
0>

'll-

£:
cu)

qjj

i

JUN 2 1 2021
office of the clerk

IN THE

SUPREME COURT OF THE UNITED STATES

LEWIS R. FOX - PETITIONER
Vs.
THE STATE OF OHIO - RESPONDENT

On Petition for Writ of Certiorari to the
Ohio Tenth Appellate District Court of Appeals

PETITION FOR WRIT OF CERTIORARI

I.ewis R. Fox, #733-986

Dave Yost

Belmont Correctional Inst.
P.O. Box 540
St. Clairsville, OH 43950

Ohio Attorney General
30 East Broad St., 14th Fl.
Columbus, OH 43215

Pro Se—Petitioner

Counsel for Respondent

eryi
:

•

'cM:' nvii b G#; i

t_

lh\

!■

a-'-

&i Li

!>

j

t

QUESTIONS PRESENTED

I,ewis R. Fox's Writ of Ceriorari Petition raises a pressing issue of
national importance and is a case of public or great interest involving a
substantial constitutional question. This cause presents two critical issues:
1) Whether a trial counsel is to be considered incompetent when s/he fails to
consult with their client (the criminal defendant) about their financial
adequacies to afford expert witnesses to testify/consult on the criminal defendant's
behalf; and, 2) Whether the application of res judicata can(not) be applied to a
criminal defendant's post-conviction petition when the relied upon evidence was
outside of the record?

i

LIST OF ALL PARTIES
AIT parties appear in the caption of the case on the cover page.

RELATED CASES
Petitioner is unaware of any related cases.

ii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT
A. Res“judicata was erroneous arid improperly applied to
this petitioner's state post-conviction petition.................

5

B. A case such as this one presented here has not been ruled
upon and is not clearly established by this Honorable Court

6

C. A trial counsel should be held ineffective when his/her
unsound / erratical pretrial actions cannot be
rehabilitated through subsequent trial proceedings..............

6
9

CONCLUSION
INDEX TO APPENDICES
APPENDIX A
The Ohio Tenth Appellate District Court of Appeals Opinion

App. Page
1-11

APPENDIX B
The Franklin County Court of Common Pleas (Ohio) Decision.

12-18

APPENDIX C
The Ohio Supreme Court of Ohio Entry...................................

appendix d
The letter from trial counsel (post-trial).......................

iii

19 •
20-21

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES----Kimmelman v. Morrison (1986), 477 U.S. 365.................

8

Lafler v. Gooper (2012), 566 U.S. 156.................... .

8

State v. Calhoun (1999), 86 Ohio St. 3d 279...............

5

State v. Duling (1970), 21 Ohio St. 2d 13..................

5

State v. Fox (Franklin County, Ohio C.P.C., Case No.:

15-CR-5585).

3

State v. Fox, 2020-0hio-5521........................................

1

State v. Reynolds (1997), 79 Ohio St. 3d 158..............

5

Strickland v. Washington (1984), 466 U.S. 668............

Passim

STATUTES AND RULES

OHIO REVISED CODE (O.R.C.) §2903.11

3

OHIO REVISED CODE (O.R.C.) §2953.21

3

28 U.S.C. §1257(a)...........................

1

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment of the state court(s) below.

OPINIONS BELOW
The opinion of the Ohio Tenth Appellate District Court of Appeals, which
was the highest state court to review the merits appears at Appendix A to the
petition and is reported at State v. Fox, 2020-0hio-5521 (App. Pg. 1).
The opinion of the Franklin County Common Pleas Court appears at Appendix
B to the petition and is unpublished (App. Pg. 12).

JURISDICTION
The date on which the highest state court (Ohio Supreme Court) decided my
case was March 30, 2021.

A copy of that decision appears at Appendix C (App.

Pg. 19).
The jurisdiction of this Court is invoked uder 28 U.S.C. §1257(a).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
—The* Sixth Amendment to the United States Constitution provides in
relevant part:
"In all criminal prosecutions, the accused shall enjoy the right . . .
to have compulsory process for obtaining witnesses in his favor, and to
have the [effective] Assistance of Counsel for his defense."

The Fourteenth Amendment to the United States Constitution provides in
relevant part:
"[N]or shall any State deprive any person of life, liberty, or property
without due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws."

2

STATEMENT OF THE CASE
-------This_case_.arises from, this petitioner's endeavor to overturn the lower
court's decision regarding the denial of petitioner's state post-conviction
petition.
This petitioner, on advisement of counsel, along with petitioner's fiancee,
were the only witnesses to testify on petitioner's behalf at petitioner's trial
by jury.

No expert witnesses were called.

Petitioner was accused of two counts of Felonious Assault (both with the
enhanced gun specifications) pursuant to Ohio Revised Code §2903.11.
This petitioner was arrested on the evening of October 29, 2015 (the city's
designated day for Halloween) where before two univited women arrived at petitioner's
house to confront petitioner: "to beat his ass." Awoken from his fiancee's
frantic calls and unaware of whom was at the door making loud noises, grabbed
his revolver, came downstairs to protect his family and his home from unwanted
intruders.
It is at the doorway where the State's descriptive differences occur.

Four

separate testimonies heard between one (gun sounding) shot, to two, to three, to
four shots; However, only two spent shell casings were in petitioner's revolver
(no other casings, spent or otherwise were found).
during the confrontation.
Fox

One Ms. Robinson was injured

The second woman was not harmed in anyway or manner.

was ultimately found guilty of both counts of Felonious Assault

(with gun specifications) and was sentenced to Ten (10) years imprisonment.
Fox timely filed a state post-conviction petition pursuant to the Ohio
Revised code §2953.21 raising various Ineffective Trial Counsel claims; of which,
pertinent to this Court, trial counsel:

1) failed to investigate, and 2) failed

to call any expert witnesses on behalf of this petitioner.
The trial court applied res judicata, denying relief.

(Case No.:

5585, Franklin County Common Pleas Court, Ohio.) Appendix B.

3

15-CR-

Petitioner timely appealed the trial court's decision to the Tenth District
Appellate Court of Appeals of Ohio.
In denying petitioner's post-conviction appeal, the state court of appeals
subsequently relied on the testimony of this petitioner; while disregarding the
post-trial letter that was sent from petitioner's trial counsel to this
petitioner. (Case No.:

19AP-677.) Appendix A.

(Letter—Appendix D.)

The Ohio Supreme Court declined jurisdiction to hear petitioner's timely
filed appeal.

(Case No.: 21-0037) Appendix C.

4

REASONS FOR GRANTING THE WRIT
A. Res judicata was erroneous and improperly applied to petitioner's
state post-conviction petition.
The Ohio Supreme Court has clearly established that under the Doctrine of
Res Judicata:

"[a] defendant cannot raise a issue in a motion for post-conviction

relief if he or she could have raised the issue on direct appeal. State v.
Duling (1970), 21 Ohio St. 2d 13." State v. Reynolds (1997), 79 Ohio St. 3d 158.
The petitioner also "bears the initial burden to submit evidentiary
documents containing sufficient operative facts to demonstrate the lack of
competent counsel and the the defense was prejudiced by counsel's ineffectiveness."
State v. Calhoun (1999), 86 Ohio St. 3d 279, 283.
Petitioner assserts that neither addressing / lower courts acknowledged the
post-trial letter sent from trial counsel to this petitioner where the trial
counsel blatantly stated that he "did not discuss an expert" witness(es)
because "experts generally cost significant amounts of money." Appendix D., Pg. 21.
Basically, trial counsel did not inquire of this petitioner's ability to pay
for experts / witnesses on petitioner's behalf. Trial counsel did not make any
attempts to have witnesses provided at the State's expense either.

Furthermore,

he did not pursue any certain line of investigation, through pretrial factual
findings, that is required before any competent attorney can make any reasonable
strategic choices in preparing for trial.
Petitioner asserts that without the post-trial letter:

Petitioner could

not have supported his claims of ineffective counsel, and Petitioner's claims
could not have been raised in a post-conviction petition.

Moreover, had this

petitioner raised such claims via a direct appeal, he could not have succeded
without the supporting "outside the record" evidence:

the post-trial letter.

The lower addressing courts, by failing to acknowledge the "post-trial
letter," circumvented petitioner's claims by its erroneous application of res

5

judicata.

It is this petitioner's request for this Honorable Court to accept a

Writ of Certiorari to correct the state court's erroneous application of res
judicata and rule upon the merits of petitioner's ineffective trial counsel
claims.

A failure to accept jurisdiction will allow the State of Ohio and others

to apply a bogus/erroneous procedural bars to criminal defendants with meritable
claims.
B. A case such as the one presented here has not been ruled upon and is
not clearly established by this Honorable Court.
While matters dealing with trial counsel being constitutionally ineffective
is guided by this Court's precedent of Strickland v. Washington (1984), 466 U.S.
668; this Honorable Court has not clearly established or defined that pretrial
counsel error can(not) be corrected through subsequent trial proceedings.
In the instant case, without this Court's intervention, a lower court's
decision would stand, allowing a trial counsel his or her discretion to not
inquire or investigate the cost associated with expert witnesses on his/her
client's behalf, nor inquire whether the client could even afford such costs—
denying a relevant obligation in preparing for a criminal defendant's trial.
In respect to the United States Constitution, there is no mention that a trial
counsel can discriminate, simply denying a criminal defendant his right to
compulsory process (expert witnesses) because the counsel made an independent
choice not based on the value of the witnesses, but soley on the cost (which
appears to have never been investigated either).
Since this question has not been clearly established, not only this petitioner,
but also others similarly situated, risk being denied federal habeas relief.
Petitioner requests a Writ of Certiorari to clearly define / establish whether
petitioner's claim is worthy of the Strickland standard.
C.

A trial counsel should be held ineffective when his/her unsound /
erratical pretrial actions cannot be rehabilitated through subsequent
trial proceedings.

Under Stricldand, a defendant claiming ineffective assistance of counsel

6

must identify specific acts or ommissions of counsel that are alleged not to be
within the realm of professional judgment.

Strickland @ 690.

In petitioner's state post-conviction petition, he asserted that counsel
failed to investigate:

whether one shot or two were fired from petitioner's

revolver; whether the injury sustained by the alleged victim was by the bullet
or another object 7 projectile; where were both the alleged victims standing in
relation to petitioner when the round(s) were accidentally discharged, i.e.,
the forensics and ballistics (through use of experts)—recreating the crime
scene.
Trial counsel did not investigate or call expert witnesses regarding /
supporting petitioner's trial testimony of holding the revolver in his non­
dominant hand, of which, was under extensive remedial therapy for hand/arm
damage.

Trial counsel also allowed the stipulation of a medical doctor whom

stated that the trajectory of the wound to the alleged victim was a down to
upward motion of the right-outer thigh exiting the buttox.

Without furthering

the medical doctor's testimony by being put on the stand, an insinuation was
left, declaring this was a serious life-threatening injury, which is an element
required for the most serious level of (felonious) assault.

To put things into

perspective: The petitioner was in the doorway at a level six to ten inches
higher than the alleged victim—it would have been impossible to have shot the
alleged victim directly.
Trial counsel, through his post-trial letter, chose not to inquire of
experts because of the cost, not of their lack of value.
The lower reviewing state court consistently referred to this petitioner's
trial testimony where cross-examination attempted to distort petitioner's
accuracy of events.

It is common knowledge that expert witnesses carry a

higher level of credibility than that of a potential "self-serving" testimonial
from a criminal defendant.

7

Moreover, the lower court's analysis of expert witnesses was objectively
unreasonable.

The state5 court of appeals analyzed what effect the expert

witnesses or investigation could have provided other than appellant's testimony
or others during trial.

Such decision requires an appellant to be an expert

in each of these disciplines of expertise.

These experts require vast amounts

of formal education, training, knowledge, and experiences; none of which this
petitioner has—so he is unsure of the potential that these experts could have
provided, but without consultation with petitioner's trial counsel—he was
deprived of any such knowledge.

Disturbingly,

the lower court relies upon this

petitioner's own testimony—had these experts been investigated / called as
witnesses within their expertise, this petitioner may not have needed to take
the stand and testify on his behalf.

Such a bar is extremely too high and is

not required by Strickland.
This Court held in Kimnelman v. Morrison (1986), 477 U.S. 365, that a trial
counsel whom failed to file a "pretrial" motion to suppress was prejudicial and
such suppressed evidence would have changed the outcome of the trial proceedings.
Petitioner's position is that his ineffective assistance of trial counsel errors
are similar, yet, distinctive.
"Here, the question is the fairness or reliability not of the trial but of
the processes that preceded it, which caused [petitioner] to lose benefits he
would have received but for counsel's ineffective assistance." Lafler v. Cooper
(2012), 566 U.S. 156, 157.
In this case, if trial counsel would have investigated and obtained these
experts (or others not mentioned), counsel would have obviated this petitioner
and his fiancee's testimonies.

In a worst case scenario, if both had testified,

their testimonies would have been examined for accuracies and supported with
more credible "expert witnesses." Thus there is a reasonable probability that,
but for counsel's deficient "pretrial" performance in failing to investigate /

8

calling expert witnesses on behalf of his client and/or requesting witnesses at
the state's expense; the outcome of the trial proceeding would have been
different.

Strickland @ 687.

Where in the constitution does it declare that a

poorer criminal defendant should have a lesser defense simply because the trial
counsel believes s/he cannot afford it (or vice versa)?
Petitioner respectfully requests this Honorable Court to allow this petition
for a writ of certiorari to allow further investigation of petitioner's claims
of ineffective assistance of trial counsel's pretrial errors and the prejudicial
effects that may (not) have been mentioned throughout this petition and whether
or not that this case meets the Strickland standards for review.

CONCLUSION
The petition for a writ of certiorari should be granted in this
extraordinary case of ineffective assistance of trial counsel,

This Court's

review is warranted not only to resolve, but also to maintain the public's
confidence that courts will not permit a criminal defendant's conviction where
and when trial counsels fail to inquire not only of the costs associated with
expert witnesses, but also fail to inquire whether or not a criminal defendant
could afford such witnesses, let alone at the state's expense, and what those
witnesses could have provided to the defense.
Respectfully submitted,

ft.
Date: (j? " j ~

<)

)

